NO.
IN THE
SUPREME COURT OF THE UNITED STATES
BRIAN ADRIAN SLOAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
APPENDIX
TO
PETITION FOR WRIT OF CERTIORARI

United States v. Sloan, 845 Fed.Appx. 750 (2021)

845 Fed.Appx. 750
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 10th Cir. Rule 32.1.
United States Court of Appeals, Tenth Circuit.

ORDER AND JUDGMENT *
Carlos F. Lucero, Circuit Judge
Brian Sloan appeals his conviction under
18 U.S.C. §
2241(c) for two counts of engaging *751 in a sexual act
“with a person who has not attained the age of 12 years.” He
argues the district court committed plain error both because
the government failed to provide sufficient evidence that the
victim was under the age of twelve at the time of the alleged
offenses and because of several sentencing errors. Exercising
jurisdiction under 28 U.S.C. § 1291, we affirm.

UNITED STATES of America, Plaintiff - Appellee,
v.
Brian Adrian SLOAN, Defendant - Appellant.
No. 19-2096
|
FILED February 8, 2021

I

Synopsis
Background: Defendant was convicted in the United States
District Court for the District of New Mexico of engaging in
a sexual act with a person who had not attained the age of 12
years and was sentenced to life imprisonment. He appealed.

Holdings: The Court of Appeals, Lucero, Circuit Judge, held
that:
evidence was sufficient to support conviction; and
alleged sentencing errors did not prejudice defendant.
Affirmed.
Procedural Posture(s): Appellate Review.
(D.C. No. 1:16-CR-03502-JCH-1) (D. New Mexico)
Attorneys and Law Firms
Nicholas J. Ganjei, Paige Messec, Office of the United
States Attorney, District of New Mexico, Albuquerque, NM,
Plaintiff-Appellee
John C. Arceci, Office of the Federal Public Defender,
Districts of Colorado and Wyoming, Denver, CO, for
Defendant-Appellant
Before MATHESON, LUCERO, and EID, Circuit Judges.

In 2018, Sloan was convicted of four counts of sexual abuse
of two children, John Doe and Jane Doe, under

18 U.S.C. §

2241. Three of these counts arose under
§ 2241(c), which
requires that the alleged sexual act be “with a person who
has not attained the age of 12 years.” Two of those three
counts, which are the focus of Sloan's appellate challenge,
stemmed from sexual abuse of John Doe that is alleged to
have occurred in 2007. At the 2018 jury trial, John Doe
repeatedly testified that the 2007 sexual abuse occurred when
he was eleven, and the last instance of sexual assault occurred
in 2008 when he was twelve. Although Doe testified that
his birthdate was December 15, 1995, on one occasion he
stated that the year of his birth was 1994, and throughout
his testimony described his current age as 23 despite his
testifying approximately one month before his 23rd birthday.
In response to the court's question, Doe stated that his birthday
was December 15, 1995, but again also stated that he was
23. Although these discrepancies were highlighted in Sloan's
closing argument, he did not move for a judgment of acquittal.
During its deliberations, the jury asked for clarification on
the exact birthdate of John Doe, and, without objection, the
judge informed the jury that they were required to rely on their
recollection of the evidence to resolve the factual issues. The
jury did so, returning a unanimous verdict finding Sloan guilty
on all charges, include the two violations of
challenged on appeal.

§ 2241(c) now

After sustaining objections to sentence enhancements for
obstruction of justice, the district court adjusted the offense

A1
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Sloan, 845 Fed.Appx. 750 (2021)

level for Sloan's four counts of conviction under

§§

2241(a) and
2241(c). Because his offense level was then
calculated to exceed the maximum possible offense level of
43, the district court reduced the offense level to the Guideline
ceiling of 43. With a resulting total offense level of 43 coupled
with Sloan's criminal history category of II, the district court
sentenced Sloan to life imprisonment—the recommended
Guideline range.
Sloan appealed, arguing: (1) that his conviction on counts one
18 U.S.C. § 2241(c) were plain
and two for violations of
error because the government had not provided sufficient
evidence that John Doe was under the age of twelve at the
time of the offenses in light of Doe's conflicting testimony on
his age; (2) that the district court committed three errors in
calculating his sentence range, which cumulatively constitute
plain error requiring resentencing; and (3) that the Major
Crimes Act, 18 U.S.C. § 1153, is unconstitutional because it
is based on an impermissible racial classification of who is an
“Indian” subject to federal criminal jurisdiction.

1

of the record to resolve whether, “viewing the evidence in
the light most favorable to the government, a reasonable jury
could have found the defendant guilty beyond a reasonable
doubt.”
United States v. Cornelius, 696 F.3d 1307, 1316
(10th Cir. 2012) (quotation omitted).
Sloan's challenge to the sufficiency of the evidence on the
two
§ 2241(c) convictions in counts one and two focuses
solely on the element that the alleged sexual act be “with a
person who has not attained the age of 12 years.” He asserts
that discrepancies in Doe's testimony as to his year of birth
and age at trial render the government's evidence inadequate
to support his convictions. The jury, however, heard not only
these discrepancies, but also Doe's repeated statements that
the 2007 assaults occurred when he was eleven, and the 2008
assaults when he was twelve—testimony directly supporting
the required element. Despite Sloan's highlighting of these
discrepancies in his closing argument, the jury found Sloan
§ 2241(c) as alleged in counts one and
guilty of violating
two involving John Doe.
“It is not the role of an appellate court to consider the
credibility of the witnesses or weigh the conflicting evidence,
as these matters are within the exclusive province of the jury.”

II
Because Sloan did not move for a judgment of acquittal, we
review his claim of *752 evidentiary insufficiency for plain
error. United States v. Leffler, 942 F.3d 1192, 1197 (10th
Cir. 2019). Similarly, he failed to object to the district court's
guideline calculations; as a result it is also reviewed only for
plain error.
United States v. Magallanez, 408 F.3d 672,
683 (10th Cir. 2005). Plain error exists when there is (1) an
error that (2) is plain, (3) affected the defendant's substantial
rights, and (4) seriously affects the fairness, integrity, or
public reputation of judicial proceedings.
United States v.
Mann, 786 F.3d 1244, 1249 (10th Cir. 2015).

A
Because a conviction in the absence of sufficient evidence
of guilt “almost always meets the first three factors of plain
error review ... review under the plain error standard ... and
a review of sufficiency of the evidence usually amount to
largely the same exercise.” United States v. Rufai, 732 F.3d
1175, 1189 (10th Cir. 2013) (quotations omitted). Review for
sufficiency of the evidence entails a de novo consideration

Magallanez, 408 F.3d at 682. Sloan had the opportunity to
attack Doe's credibility at trial and did so, both in his cross
examination and in his closing argument. And, similar to
Magallanez, the court specifically instructed the jurors at
the beginning of the case that it was their decision on “what
evidence to believe and how much of any witness’ testimony
to accept or reject,” and later, when the jury asked a question
on Doe's birthdate, the court further instructed the jury that
they were to “rely on [their] recollection of the evidence to
resolve the factual issues.”
“[S]ufficiency of the evidence determinations are made by
assessing the totality of the circumstances in the individual
case.”
Rufai, 732 F.3d at 1194 (quotation omitted).
Notwithstanding the discrepancies highlighted by Sloan in
this appeal, Doe repeatedly testified that the abuse charged in
counts one and two occurred when he was eleven, including
during cross-examination. Additionally, this jury had the
assistance of expert testimony on the effect of abuse and
trauma on a victim's memory and responses when interviewed
and could properly weigh these circumstances when assessing
discrepancies in Doe's testimony regarding the sexual abuse
he had experienced between the ages of eleven and twelve.

A2

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Sloan, 845 Fed.Appx. 750 (2021)

The jury's verdict resolved the date discrepancies. It
necessarily reflected how much of Doe's testimony they
unanimously *753 decided to accept or reject. This
determination is supported by sufficient evidence in the
2

record. We have previously explained that when faced with
inconsistent testimony, “the jury [is] in the best position to
try the evidence presented.” United States v. Cui Qin Zhang,
458 F.3d 1126, 1128 (10th Cir. 2006). Because we conclude
that a reasonable jury could reach this conclusion beyond a
reasonable doubt, no error was committed. See Rufai, 732
F.3d at 1188 (“The test is ... whether a rational jury could have
found each element of a crime beyond a reasonable doubt.”).

B
Sloan asserts three alleged errors in the computation of his
sentencing range. First, he claims that the method employed
by the district court to adjust his offense level after sustaining
the objection to the obstruction of justice enhancement for
each count was erroneous. Second, Sloan argues that the
district court incorrectly “included a four-level enhancement
under § 2A3.1(b)(1) [of the U.S. Sentencing Guidelines]
on each the three
§ 2241(c) counts (Counts 1, 2, and
4).” Third, he contends that the presentence report (“PSR”)
incorrectly stated that count four imposed a mandatory
minimum term of 30 years’ imprisonment, when in fact
there was no mandatory minimum applicable at the time of
Sloan's sentencing. Finally, despite acknowledging that the
three alleged errors had no effect on the resulting guideline

range, Sloan asserts that the cumulative effect of these three
errors nonetheless requires resentencing. We disagree.
In order to show plain error, Sloan must demonstrate that the
errors he asserts affected his substantial rights. See
Mann,
786 F.3d at 1249. For an error to have affected substantial
rights, “the error must have been prejudicial: It must have
affected the outcome of the district court proceedings.”
United States v. Dazey, 403 F.3d 1147, 1175 (10th Cir.
2005) (quotation omitted). As Sloan acknowledges, none of
his alleged errors had any effect on the resulting Guideline
offense level, which was determined to be, and would have
been with or without the alleged errors, the maximum possible
offense level of 43. Moreover, two of the errors Sloan alleges
resulted in a lower, not higher, guideline offense level before
application of the offense level ceiling. Errors to Sloan's
benefit do not demonstrate prejudice. Sloan also fails to
explain how an incorrect statement of the statutory mandatory
minimum in the PSR prejudicially affected his sentence of life
imprisonment. Because Sloan's alleged errors, individually or
in combination, did not affect the outcome of the district court
proceedings, he has failed to show plain error.

III
For the reasons stated above, Sloan's convictions and sentence
are affirmed.
All Citations
845 Fed.Appx. 750

Footnotes
*

1

2

This order and judgment is not binding precedent, except under the doctrines of law of the case, res judicata,
and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P.
32.1 and 10th Cir. R. 32.1.
As Sloan acknowledges, this claim is currently foreclosed by binding precedent and was presented only to
preserve it for further review. See
United States v. Antelope, 430 U.S. 641, 97 S.Ct. 1395, 51 L.Ed.2d 701
(1977). We will not address it further.
Because we conclude there was sufficient evidence presented to the jury regarding John Doe's age, we need
not address the government's request that we take judicial notice of John Doe's birth certificate.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A3

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

